                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 112050022                                                                    Page 1 of 1



         OIG received a request for assistance from a Federal Agent with a Federal Agency 1 which
         received information that an individuaf may have illegally exported plants out of Antarctica in
         violation of the U.S. Antarctic Conservation Act (ACA).

         It was determined that the individual had worked for the U.S. Antarctic Program as an NSF
         contractor for over 20 years and was last in Antarctica in 2009.

         Discussions were held between the Federal Agent and NSF officials that deal with the
         enforcement of ACA violations. It was determined that there is no evidence of an ACA violation
         at this time.

         No further investigative activity is warranted. This investigation is closed .




NSF OIG Fonn 2 (11 /02)
